Case: 18-11591

Document: 00515187968

Page: 1

Date Filed: 11/05/2019

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 18-11591

FILED
November 5, 2019
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.

ROBERT EARL RAMSEUR,
Defendant - Appellant

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:16-CR-65-l

Before OWEN, Chief Judge, and HAYNES and COSTA, Circuit Judges.
PER CURIAM:*
Appellant Robert Earl Ramseur was indicted for twenty-six counts of
willfully assisting in the preparation of false tax returns, in violation of 26
U.S.C. § 7206(2), and was convicted by a jury on all counts. The district court
sentenced Ramseur to sixty-four months of imprisonment and restitution of
$399,400 to the Internal Revenue Service (“IRS”).

Ramseur appeals the

district court’s judgment on three grounds, arguing that (1) the evidence was

Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

Case: 18-11591

Document: 00515187968

Page: 2

Date Filed: 11/05/2019

No. 18-11591
not sufficient to show that the false statements were material, as required
under § 7206(2); (2) the restitution order unlawfully considered more than the
actual loss suffered by the IRS; and (3) the written judgment contained a
clerical error that should be corrected under Federal Rule of Criminal
Procedure 36(k). He also argues for the first time on appeal that his trial
counsel was constitutionally ineffective. For the reasons set forth below, we
AFFIRM the district court’s judgment as to his conviction and VACATE the
district court’s restitution order and REMAND for proceedings consistent with
this opinion in that regard. We further REMAND for the district court to
correct the written judgment to incorporate all of the convictions. Lastly, we
DENY without prejudice Ramseur’s ineffective assistance of counsel claim.
I.

Background

Ramseur operated a tax preparation business in Dallas.

While

investigating Ramseur for insurance fraud in February 2013, the Texas
Department of Insurance (“TDI”) discovered that multiple treasury checks
uuiiig uupu&itou uiiuoiiy into xvamseur s ousmess account. iJJi miormeu
the IRS that Ramseur may have been engaged in filing fraudulent tax returns
(hereinafter “February 2013 Statement”).
During initial investigation of Ramseur’s tax filings, the IRS found that
eighty-seven percent of his prepared tax returns from 2009 to 2012 included a
Schedule C—a document that reports profit or loss by a self-employed
individual—and reported business losses at a frequency that exceeded national
statistics. The IRS interviewed taxpayers who had used Ramseur’s services
for multiple years; it discovered that most of them were not self-employed and
thereby were precluded from claiming a Schedule C loss.
In April 2013, an undercover IRS agent went to Ramseur’s office posing
as a client wanting to have a tax return prepared to confirm whether Ramseur
was filing false Schedule Cs to obtain greater tax returns. Indeed, Ramseur
2

Case: 18-11591

Document: 00515187968

Page: 3

Date Filed: 11/05/2019

No. 18-11591
did just that and filed a false Schedule C for the undercover IRS agent,
reporting a loss for a non-existent marketing business.
A grand jury charged Ramseur with twenty-six counts of willfully
assisting in the preparation of materially false tax returns for ten different
clients, in violation of 26 U.S.C. § 7206(2). For each count, the indictment
alleged a single, material falsity: “that the taxpayer was entitled to claim a
Schedule C business loss . . . when . . . said taxpayer was not entitled to claim
a Schedule C business loss, or the loss amount was grossly overstated.”
At trial, the ten clients confirmed that the charged tax returns contained
false Schedule Cs. Nine clients testified that they either never operated a
business or never told Ramseur they did. One client operated a business but
never told Ramseur that his business lost the amount of money reported on his
Schedule C. Further, seven clients were audited for back taxes. After the close
of evidence, the district court instructed the jury on the elements of the § 7206
charges:
First: That the defendant aided and assisted in or procured,
counseled, or advised the preparation of a return arising under the
internal revenue laws;
Second: That this return falsely stated on Schedule C, line 31 and
on line 12 of Form 1040 that during the tax year charged in the
count, the taxpayer was entitled to claim a business loss in the
amount set forth in the count;
Third: That the defendant knew that the statement in the return
was false;
Fourth: That the false statement was material; and
Fifth: That the defendant aided and assisted in, or procured,
counseled, or advised the preparation and/or presentation of this
false statement willfully, that is, with intent to violate a known
legal duty.
The jury instructions also informed the jury that “[a] statement is
‘material’ if it has a natural tendency to influence, or is capable of influencing,
3

Case: 18-11591

Document: 00515187968

Page: 4

Date Filed: 11/05/2019

No. 18-11591
the Internal Revenue Service in investigating or auditing a tax return or in
verifying or monitoring the reporting of income by a taxpayer.” The jury found
Ramseur guilty on all counts.
The Presentence Investigation Report (“PSR”) noted that, as Title 26
offenses, the district court could impose discretionary restitution for the
convicted counts. Based on the IRS’s initial investigation, which uncovered
fifty-five tax returns, each containing at least one false Schedule C deduction,
the PSR stated that the defendant could be responsible for restitution of
$399,400. Ramseur objected to the restitution, stating that the PSR did not
“include sufficient evidence on which to base a restitution award” as required
under United States u. Sharma, 703 F.3d 318, 322 (5th Cir. 2012).

In

particular, Ramseur pointed out that “several taxpayer witnesses . . . testified
that they were never audited, their returns were never adjusted, and they
[had] not made any payments to the IRS for alleged taxes due.”
At sentencing, the district court orally pronounced a within-Guidelines
sentence for all counts. The court accurately imposed the sentence for each
count in its written judgment but left out Counts 21 to 26 in its “Counts of
Conviction,” and it ordered Ramseur to pay $399,400 in restitution to the IRS.
Ramseur timely appealed his judgment.
On appeal, Ramseur raises four claims: (1) the district court lacked
sufficient evidence to support the conviction under 26 U.S.C. § 7206(2); (2) the
restitution order was illegal; (3) the written judgment incorrectly recited the
counts of conviction under Federal Rule of Criminal Procedure 32(k); and
(4) trial counsel provided ineffective assistance for failure to investigate,
develop, and present evidence of the February 2013 Statement.

4

Case: 18-11591

Document: 00515187968

Page: 5

Date Filed: 11/05/2019

No. 18-11591
II.

Discussion

A. Sufficiency of Evidence
We review Ramseur’s sufficiency of evidence claim de novo, viewing “all
of the evidence in the light most favorable to the verdict to determine whether
any rational trier of fact could find guilt beyond a reasonable doubt.” United
States v. Morrison, 833 F.3d 491, 499 (5th Cir. 2016) (quoting United States v.
Churchwell, 807 F.3d 107, 114 (5th Cir. 2015)).

As the jury instruction

correctly stated, a statement is material if it has “a natural tendency to
influence, or be capable of influencing, the decision of the decisionmaking body
to which it was addressed.” United States v. Richardson, 676 F.3d 491, 505
(5th Cir. 2012) (internal quotation marks omitted) (quoting United States v.
Gaudin, 515 U.S. 506, 509 (1995)).
Ramseur contests only the materiality element of his § 7206(2) charges.
He contends that the IRS could not have investigated him based on the
allegedly false Schedule C losses because the IRS did not discover these losses
until it started investigating him based on the February 2013 Statement. He
argues that, rather than the allegedly false Schedule Cs, the February 2013
Statement was material. Alternatively, Ramseur contends that the Schedule
Cs were not capable of influencing the IRS to investigate or audit because the
alleged tax scheme was not covert or complex and thus could not have triggered
any anomaly for investigation.
Even if we were to accept Ramseur’s arguments, the jury instruction on
materiality refers not only to investigating a tax return, but also “verifying . . .
the reporting of income by a taxpayer.” In United States v. Taylor, we held
that because accurate information on an individual income tax return was
vitally necessary for the IRS to verify” a taxpayer’s income, failure to provide
such information constitutes a materially false statement. 574 F.2d 232, 23536 (5th Cir. 1978); see also United States v. Damon, 676 F.2d 1060, 1064 (5th
5

Case: 18-11591

Document: 00515187968

Page: 6

Date Filed: 11/05/2019

No. 18-11591
Cir. 1982) (stating that “[t]he appended Schedule C's, claiming business loss
deductions to which the taxpayers were admittedly not entitled, rendered the
returns ‘fraudulent’ or ‘false as to (a) material matter,’ within the meaning of
Section 7206(2)”). Here, the Schedule Cs on Ramseur’s clients’ tax returns
were necessary for the IRS to verify their income. Thus, a rational jury could
have found that the inaccurate information on those Schedule Cs was material.
B. Restitution Order
Ramseur argues the district court’s restitution order was unlawful
because (1) the IRS failed to account for the repayments some of Ramseur’s
clients made to the IRS, and (2) the restitution exceeded the actual loss from
the offenses of conviction by accounting for fifty-five tax returns of twenty-one
taxpayers.1
Because Ramseur failed to raise these objections in the district court
proceedings, we review for plain error. United States u. Maturin, 488 F.3d 657,
659-60 (5th Cir. 2007); see also United States u. Tolentino, 766 F. App’x 121,
125 (5th Cir.) (per curiam) (concluding that plain error review applies where
the defendant failed to object to the specific issue on appeal), cert, denied, 205
L. Ed. 2d 146 (2019). Ramseur contends that he preserved his restitution
objections and that we should review de novo. However, his objection to the
restitution recommended in the PSR was that the PSR failed to “include
sufficient evidence on which to base a restitution award” because “several

1 Ramseur also argues that the restitution order is illegal because the Mandatory
Victims Restitution Act (“MVRA”) does not apply. We agree that the MVRA does not apply.
18 U.S.C. § 3663A(c)(l)(A) (omitting Title 26 tax offenses from the MVRA); U.S. v. Nolen, 523
F.3d 331, 332 (5th Cir. 2008) (holding that “restitution may not be ordered for a Title 26
offense except as a condition of probation or supervised release”). But the PSR did not
recommend restitution under the MVRA, and the district court may discretionarily impose
restitution as a condition of supervised release under 18 U.S.C. §§ 3583(d) and 3663, which
it did here. See United States u. Westbrooks, 858 F.3d 317, 327 (5th Cir. 2017), vacated on
other grounds by 138 S. Ct. 1323 (2018) (mem.).
6

Case: 18-11591

Document: 00515187968

Page: 7

Date Filed: 11/05/2019

No. 18-11591
taxpayer witnesses . . . testified that they were never audited, their returns
were never adjusted, and they ha[d] not made any payments to the IRS for
alleged taxes due.” Thus, he raises new claims on appeal, and we review for
plain error.
Under plain error review, “this court can correct an error in the district
court proceedings only if the error was clear or obvious and affected the
substantial rights of the defendant.” Maturin, 488 F.3d at 660; see also Fed.
R. CRIM. P. 52(b). If the defendant satisfies these requirements, “this court
may, in its discretion, grant the defendant relief if ‘the error seriously affects
the fairness, integrity, or public reputation of judicial proceedings.’” Maturin,
488 F.3d at 600 (quoting United States v. Ibarra-Zelaya, 465 F.3d 596, 606 (5th
Cir. 2006)).
Restitution is limited to “the loss caused by the specific conduct that is
the basis of the offense of conviction.” Hughey v. United States, 495 U.S. 411,
413 (1990). This loss takes into account the loss already repaid to the victim.
See United States v. Udo, 795 F.3d 24, 34 (D.C. Cir. 2015) (holding that
restitution be reduced by the amount the defendant already paid to the victim);
see also United States v. Austin, 479 F.3d 363, 373 (5th Cir. 2007) (holding that
restitution for falsely claimed benefits for funding employees’ pension plans be
reduced by the amount the defendant funded after the benefits reporting
deadline).

Thus, a district court commits plain error when it orders a

defendant to pay restitution exceeding the actual loss, and this “error affects
substantial rights as well as the fairness and integrity of the judicial
proceeding.” Austin, 479 F.3d at 373.
Here, as the Government concedes, the district court committed
reversible plain error when it imposed a restitution order that included losses
from tax returns other than the twenty-six for which Ramseur was convicted.
Moreover, the district court committed reversible plain error by failing to
7

Case: 18-11591

Document: 00515187968

Page: 8

Date Filed: 11/05/2019

No. 18-11591
account for the fact that several of Ramseur’s clients paid the IRS for payments
owed on tax returns that were the basis of Ramseur’s convictions.

Other

witnesses testified that they made back payments to the IRS for unidentifiable
tax years, which may be attributable to one of Ramseur’s convicted offenses.
Although the testimonies do not specify the amount of actual loss that
has been repaid, the Government expressed willingness to provide more
specific information on payments received by the IRS on the tax returns
associated with Ramseur’s convictions to determine the correct actual loss. In
a similar case where the district court failed to consider the repayments made
by the defendant’s clients in its restitution order, the D.C. Circuit remanded
the case for the district court to reconsider the actual loss “with any
information about updated payments from [the defendant’s] clients.” Udo, 795
F.3d at 34. In the same manner, we vacate the district court’s restitution order
and remand for the court to reconsider the restitution order in a manner
consistent with this opinion.
C. Correction of the Written Judgment
Ramseur also argues that the case should be remanded for correction of
the final judgment in accordance with Federal Rule of Criminal Procedure 36
because the final judgment omits Counts 21 to 26. The Government agrees.
“This court has authority to review errors in a judgment for the first time on
appeal.”

United States v. Perez-Melis, 882 F.3d 161, 168 (5th Cir. 2018).

Consistent with our holding in Perez-Melis, we remand the case to the district
court to correct the final judgment to reflect all twenty-six counts of conviction.
See id. (remanding the case for correction of the final judgment to reflect the
counts dismissed from the indictment).
D. Ineffective Assistance of Counsel
“As a general rule, we decline to review claims of ineffective assistance
of counsel on direct appeal” because it requires the court to “proceed on a trial
8

Case: 18-11591

Document: 00515187968

Page: 9

Date Filed: 11/05/2019

No. 18-11591
record not developed precisely for the object of litigating or preserving the
claim and thus [is] often incomplete or inadequate.” United States v. Gordon,
346 F.3d 135, 136 (5th Cir. 2003) (quoting Massaro v. United States, 538 U.S.
500, 505 (2003)). We decline to reach this issue on direct appeal, so we deny it
without prejudice. See United States v. Isgar, 739 F.3d 829, 841 (5th Cir. 2014).
III.

Conclusion

For the foregoing reasons, we AFFIRM the district court’s judgment as
to his conviction and VACATE the district court’s restitution order and
REMAND for proceedings consistent with this opinion in that regard. We
further REMAND for the district court to correct the written judgment to
incorporate all of the convictions.

Lastly, we DENY without prejudice

Ramseur’s ineffective assistance of counsel claim.

9

f

Case l:12-cr-00090-BJR Document 91 Filed 10/09/15 Page 1 of 7
Case 3:16-cr-00065-N Document 160-1 *SEALED* Filed 02/23/20 Page 1 of 7 PagelD 1851

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
UNITED STATES OF AMERICA
v.
ENYINNAYA E. UDO
Defendant

*
*
*
*
*
*
*
*
*******

CRIMINAL NO. 12-cr-00090-BJR

JOINT MEMORANDUM REGARDING- RESTITUTION
The United States of America, by and through the undersigned attorney, together with the
defendant, by and through counsel, respectfully submit this Joint Memorandum Regarding

r

Restitution and request that the Court amend page 4 of the Judgment to reflect restitution as a
condition of supervised release in the amount of $63,513.57. The parties state the following in
support.
BACKGROUND
On August 6, 2012, a jury convicted the defendant, Enyinnaya E. Udo, of twenty-five
counts of aiding or assisting in the filing of a false tax return, in violation of Title 26, United
States Code. Section 7206(2). On November 1, 2012, the defendant was sentenced to 24
months’' incarceration, twelve months" supervised released, and ordered to pay a special
assessment in the amount of $2,500. As a condition of supervised release, Mr. Udo was also
ordered to pay restitution to the IRS in the amount of $262,966.' The restitution total

1 The Judgment indicates that, “to the extent that this amount includes taxpayers who were audited, the defendant
will be jointly and severally liable.” (Judgment, Dkt. No. 63 at 4.1

1

Case l:12-cr-00090-BJR Document 91 Filed 10/09/15 Page 2 of 7
Case 3:16-cr-00065-N Document 160-1 *SEALED* Filed 02/23/20 Page 2 of 7 PagelD 1852

encompassed not just the loss resulting from the twenty-five counts of conviction but also
erroneously included, inter alia, uncharged relevant conduct.
The defendant appealed his convictions and the restitution calculation. On July 24, 2015,
the U.S. Court of Appeals for the District of Columbia affirmed the defendant’s convictions but
remanded the case to the district court regarding the improperly calculated restitution. See
United States v. Udo, 795 F.3d 24 (D.C. Cir. 2015). The defendant has served his sentence and
his term of supervised release, which expired on June 8, 2015.3 The only issue before this Court
is to correct page 4 of the Judgment regarding restitution during supervised release.
On September 22, 2015, the Court ordered the Government to provide evidence regarding
the credit of payment made by one of the Defendant’s clients along with any argument no later
than September 30, 2015. That deadline was subsequently extended to October 9, 2015. The
parties now submit the requested evidence and the following recommendation to the Court.
ARGUMENT
It is a “firmly established principle that federal courts may not order restitution in the
absence of statutory authorization.” United States v. Akande, 200 F.3d 136, 138 (3d Cir. 1999)
(citing cases); see also United States v. Moore, 703 F.3d 562, 573 (D.C. Cir. 2012) (“Federal
courts have authority to order restitution solely pursuant to statute.” (internal quotation marks

2 The government conceded error on this point.
3 As discussed further below, at the time the defendant’s term of supervised release expired, the defendant had
outstanding special assessment and restitution balances. Because his term of supervised release has expired, the
parties acknowledge that the instant exercise of amending the Judgment to reflect a corrected restitution amount is
essentially ministerial, as Mr. Udo’s restitution obligation does not survive his term of supervised release. His
special assessment obligation remains outstanding, however, and Mr. Udo will continue to make payments until that
obligation is satisfied.

2

I

Case l:12-cr-00090-BJR Document 91 Filed 10/09/15 Page 3 of 7
Case 3:16-cr-00065-N Document 160-1 *SEALED* Filed 02/23/20 Page 3 of 7 PagelD 1853

omitted)). Neither the Mandatory Victim Restitution Act (“MYRA”), 18 U.S.C. § 3663A, nor
the Victim and Witness Protection Act (“VWPA”), 18 U.S.C. § 3663, authorizes restitution
orders compelling payment to the IRS for a Title 26 offense, however. See 18 U.S.C. § 3663(a)
(listing applicable offenses); 18 U.S.C. § 3663A(c)(l)(A) (same); see also, e.g., United States v.
Stout, 32 F.3d 901, 905 (5th Cir. 1994) (vacating restitution ordered under § 3663 for offense
under Title 26). Thus, sentencing courts that wish to provide for the payment of restitution in
criminal tax cases may only do so by ordering the defendant to make restitution as a condition of
supervised release.
District courts are authorized by Title 18, United States Code, Section 3583(d) to impose,
as a condition of supervised release, “any condition set forth as a discretionary condition of
probation in section 3563(b).” 18 U.S.C. § 3583(d). Section 3563(b) authorizes a district court
to order a defendant to “make restitution to a victim of the offense under section 3556.” 18
U.S.C. § 3563(b). Section 3556 authorizes a district court to “order restitution in accordance
with section 3663,” which in turn provides that a court “may order . . . that the defendant make
restitution to any victim of such offense.” 18 U.S.C. § 3556.
I.

The Amount of Restitution Should be Limited to the Offenses of Conviction.
In the instant case, the Court originally ordered the defendant to pay $262,966 to the IRS

as a condition of his supervised release. This amount was calculated by totaling the tax loss
relating to all twenty-five counts of conviction, including Count 1, which related to a tax return

3

Case l:12-cr-00090-BJR Document 91 Filed 10/09/15 Page 4 of 7
Case 3:16-cr-00065-N Document 160-1 *SEALED* Filed 02/23/20 Page 4 of 7 PagelD 1854

prepared by the defendant for an IRS undercover agent,4 plus the tax loss relating to uncharged
relevant conduct. On appeal, the government conceded that the relevant conduct amount should
not have been included in the restitution calculation and that the restitution was improperly
calculated.
The amount of restitution in a criminal case is generally limited to the loss attributable to
the specific offenses of conviction and may not include losses resulting from relevant conduct.
See Hughey v. United States, 495 U.S. 411, 420 (1990) (“[T]he loss caused by the conduct
underlying the offense of conviction establishes the out limits of a restitution order.”); United
States v. Dorcely, 454 F.3d, 266, 377 (D.C. Cir. 2006). In this case, the loss associated with the
offenses of conviction was $74,047. The proper restitution amount in this case should be the loss
associated with the offenses of conviction minus any payments made to the IRS either by the
taxpayers or by the defendant himself.
II.

The Judgment Should Be Amended To Reflect Restitution As A Condition Of
Supervised Release In The Amount Of $63,513.57.
The parties jointly request that the Court revise page 4 of the Judgment in this case to

reflect restitution as a condition of release in the amount of $63,513.57.5 Revenue Agent Tammy
Barker recalculated the restitution amount the defendant owes to the IRS. (Exhibit A.) Revenue
Agent Barker obtained this figure by adding the tax loss pertaining to the counts of conviction
(not including the undercover agent’s fraudulent return charged in Count 1 of the Indictment)

4 The IRS did not issue a refund relating to this tax return. As such, it should not be included in the revised
restitution calculation.
5 The joint and several provision referenced above, see supra note 1, should remain.

4

ri.i,
Case l:12-cr-00090-BJR Document 91 Filed 10/09/15 Page 5 of 7 ^
Case 3:16-cr-00065-N Document 160-1 *SEALED* Filed 02/23/20 Page 5 of 7 PagelD 1855

and subtracting from that total any payments made to the IRS as of September 24, 2015, by the
individuals whose tax returns were charged as false in the Indictment. The revised restitution
amount of $63,513.57 represents the total amount currently owed to the IRS pertaining to Counts
2 through 25 of the Indictment. 6
The parties note that, due to (1) Probation’s assessment of the defendant’s ability to pay
/

and (2) the payment allocation policy of the Finance Office of the Clerk of Court, the defendant
has made payments toward his special assessment, but has not made any payments toward the
restitution amount that would offset the $63,513.57 figure listed above. The defendant began his
period of incarceration in December of 2012. Payment records indicate that the defendant began
making payments on October 25, 2013, continuing through his term of incarceration, which
ended on June 9, 2014.7 (Exhibit B.) Based on U.S. Probation’s financial assessment, on
September 23, 2014, the Court concurred with U.S. Probation’s recommendation and ordered the
defendant “to make payments of no less than $25 per month and/or at the discretion and direction
of the probation officer.” Accordingly, the defendant made $25 monthly payments through the
remainder of his term of supervised release, which expired on June 8, 2015. The defendant’s last
payment was made on May 22, 2015, just before his term of supervised release expired. Each

6 On June 27, 2011, taxpayer P.L. referenced in Counts 6 through 9 of the Indictment made a $20,562 payment to
the IRS for his tax liability pertaining to the years 2007 through 2009. As indicated by the “P.L.” tab in Exhibit A,
the restitution amount has been reduced by the amount of money that was attributed to the 2007 and 2008 tax years.
7 These payments were automatically deducted from the defendant’s jail account, likely pursuant to the Bureau of
Prisons’ Inmate Financial Responsibility Program, as directed by the Court on page 4 of the Judgment.
8 Defense counsel informed Mr. Udo that his restitution obligation ceased with the expiration of his term of
supervised release. It was based on this information, and no contrary instructions from Probation, that Mr. Udo
stopped making his $25 monthly payments when his term of supervised release expired. It was not until defense
(continued...)

5

■

<

* —T'J

Case l:12-cr-00090-BJR Document 91 Filed 10/09/15 Page 6 of 7
Case 3:16-cr-00065-N Document 160-1 *SEALED* Filed 02/23/20 Page 6 of 7 PagelD 1856

of the payments the defendant made was applied to the $2,500 special assessment.9 In.total, the
defendant paid $325 toward the special assessment, leaving him with an outstanding balance of
$2,175.
CONCLUSION
For the reasons set forth above, the parties respectfully request that the Court revise the
defendant’s Judgment to reflect restitution as a condition of supervised release in the amount of
$63,513.57.
Dated: October 9, 2015
Respectfully submitted,
CAROLINE D. CIRAOLO
ACTING ASSISTANT ATTORNEY
GENERAL
/s/ Erin B. Pulice
ERIN B. PULICE
Trial Attorney
Department of Justice, Tax Division
601 D Street NW, 7th Floor
Washington, DC 20530
Telephone: (202)305-3108
Fax: (202)616-1786
Email: erin.pulice@usdoj.gov

By:

(... continued)
counsel began preparing for the instant remand proceedings that she became aware that Mr. Udo had a special
assessment balance that remains outstanding. Counsel has since informed Mr. Udo that his special assessment
obligation survives his term of supervised release, and Mr. Udo is making arrangements to resume payment with
respect to his special assessment as soon as possible.
9 Per U.S. Probation and the Finance Office of the Clerk of Court, funds cannot be applied toward restitution until
the special assessment has been paid.

6

Case l:12-cr-00090-BJR Document 91 Filed 10/09/15 Page 7 of 7
Case 3:16-cr-00065-N Document 160-1 *SEALED* Filed 02/23/20 Page 7 of 7 PagelD 1857

CERTIFICATE OF SERVICE
I hereby certify that on October 9, 2015,1 electronically filed the foregoing with the
Clerk of Court by using the CM/ECF system, which will send a notice of electronic filing to
counsel of record in this case.
/s/ Erin B. Pulice__________
Erin B. Pulice
Trial Attorney
Department of Justice, Tax Division
601 D Street NW, 7th Floor
Washington, DC 20530
Telephone: (202)305-3108
Fax: (202)616-1786
Email: erin.pulice@usdoj.gov

7

l '

§ 7206.

Fraud and false statements.

i

.«

L-t
Any person who(1) Declaration under penalties of perjury. [Willfully makes and subscribes any return,
statementf or other document, which contains or is verified by a written declaration that it is
made under the penalties of perjury, and whicl he does not believe to be true and correct as to
every material matter; or
(2) Aid or assistance. Willfully aids or assist^ in, or procures, counsels, or advises the
preparation or presentation under, or in connexion with any matter arising under,' the internal
revenue laws, of a return, affidavit, claim, or c ther document, which is fraudulent or is false as
to any material matter, whether or not such fa sity or fraud is with the knowledge.br consent
of the person authorized or required to presen; such return, affidavit, claim, or document; or
(3) Fraudulent bonds, permits, and entries^ Simulates or falsely or fraudulently executes or
signs any bond, permit, entry, or other document required by the provisions of the internal
revenue laws, or by any regulation made in pursuance thereof, or procures the. same to be
falsely or fraudulently executed, or advises, aids in, or connives at such executipitifthereof; or
(4) Removal or concealment with intent to lefraud. Removes, deposits, or conceals, or is
concerned in removing, depositing, or conceal ing, any goods or commodities for or in respect
whereof any tax is or shall be imposed, or any'property upon which levy is authorized by
section5331
tm^t^^va4e^r^^f^cthp.a5sesgp3gfft^jprc^llection |f
any tax imposed by this title; or
(5) Compromises and closing agreements.'jln connection with any compromiseWier
section 7122 [26 USCS § 7122], or offer ofsuch compromise, or in connection with any •
closing agreement under section 7121 [26 USCS § 7121], or offefr to enter into any such
1 agreement, willfully•(A) Concealment of property. Conceals from any officer or employee of the United States
any property belonging to the estate of a taxpayer or other person liable in respect of the
tax, or
(B) Withholding, falsifying, and destroying records. Receives, withholds, destroys,
mutilates, or falsifies^ any book, document;, or record, or makes any false statement,
rdaffij^Sjthe estate or financial condition of the taxpayer or other person liable in respect

of thfrtd^P^J}

T

A

V

shall be guilty of a felony and, upon conviction thereof, shall be fined not more [han $100,000
($500,000 in the case of a corporation), or imprisoned not more than 3 years, or'both,
together with the costs of prosecution.

USCS

1

© 2020 Matthew Bender & Company; Inc, a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

: .

• i

>

.v

Case: 18-11591

Document: 00515227327

Page: 1

Date Filed: 12/06/2019
dr

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
b
No. 18-11591

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
ROBERT EARL RAMSEUR,
Defendant - Appellant

Appeal from the United States District Court
for the Northern District of Texas

ON PETITION FOR REHEARING
Before OWEN, Chief Judge, and HAYNES, and COSTA, Circuit Judges.
PER CURIAM:
IT IS ORDERED that the petition for rehearing is DENIED.

ENTERED FOR THE COURT:
/s/ Catharina Havnes
CATHARINA HAYNES
UNITED STATES CIRCUIT JUDGE

FORT WORTH, OPC
2201 S. E. Loop 820
Mail Stop: ROI-FW
Ft Worth, TX 76119

DEPARTMENT OF
VETERANS AFFAIRS

DATE: 1/18/2019
In Reply Refer To: ROI-FW
SSN: 3410

ROBERT EARL RAMSEUR
2320 NORTH HOUSTON ST
APT 1206
DALLAS, TX 75219
RE: ROI Plus Request for ROBERT EARL RAMSEUR
Dear MR RAMSEUR:
This individually identifiable information is privileged. Its confidentiality
should be maintained along with appropriate security safeguards to protect
against individual harm (identity theft), embarrassment, or inconvenience.
Sincerely,

Paulette R. Dickens, Supervisor, R.O.I.

MAY - 7 2020
OFFICE OF THE Cl ERK
| SUPREME COURt' u S

Prepared by: MARION FRANCIS - Release of Information

r

Progress Notes

Printed On Jan 18, 2019

LOCAL TITLE: AMB CARE ADMIN/TELEPHONE NOTE
STANDARD TITLE: PRIMARY CARE ADMINISTRATIVE NOTE
ENTRY DATE: JAN 18, 2019010:51:02
DATE OF NOTE: JAN 18, 2019010:50
AUTHOR: SHAH,ASMA A
EXP COSIGNER:
STATUS: COMPLETED
URGENCY:

T Whom it may concern

Mr Robert Ramseur is a patient of Fortworth VA clinic. He has history of severe
traumatic Brain injury during military duty. His confusion, poor speech, body
tremors, poor balance, depression is a result of his traumatic brain injury. He
will see specialist for this problem in Dallas VA Medical centre. MRI of brain is
also requested. He does not use alcohol or any illegal substance .

If you have any question , Please contact me at 817-730-0115, Ext 29115.

Thank you
Dr. Asma Shah
/es/ ASMA A SHAH
MD
Signed: 01/18/2019 10:55

PATIENT NAME AND ADDRESS (Mechanical Imprinting, if available)

VISTA Electronic Medical Documentation

RAMSEUR,ROBERT EARL
2320 NORTH HOUSTON ST
APT 1206
DALLAS, TEXAS 75219

Printed at FORT WORTH VA CLINIC

Page 1

A

case: 18-11591

Document: 00515201528

Page: 1

Date Filed: 11/15/2019

Case No. 18-11591
In the United States Court of Appeals for the Fifth Circuit

UNITED STATES OF AMERICA,
Plaintiff ‘-Appellee,
v.
ROBERT EARL RAMSEUR,
Defendant — Appellant

§
§
§
§
§
§
§
§
§

PETITION FOR PANEL REHEARING ON BEHALF OF
ROBERT EARL RAMSEUR

Lydia M. Brandt.
Iydiabrandt566@gmail.com
The Brandt Law Firm, P.C.
Texas Bar No. 00795262
P.O. Box 326
Farmersville, TX 75442-0326
(972) 972-752-5805
COUNSEL FOR APPELLANT

t^ase: ±o-ntjyi

uocument: uubib2uib2b

Page: 2

Date Filed: 11/15/2019

Table of Contents
TABLE OF AUTHORITIES

hi

STATEMENT OF THE ISSUE

1

STATEMENT OF THE CASE
& FACTS NECESSARY TO THE ISSUE

1

INTRODUCTION

5

I.

The Ramseur opinion is contrary to both the facts and operative jury charge
given the jury in the Ramseur trial because nothing in the trial pertained to
income verification. The case is about a simple, straightforward business loss
7
scheme
A. The jury charge required the government to prove beyond a reasonable
doubt that the “return falsely stated on Schedule C..., the taxpayer was
7
entitled to claim a business loss”
B. The jury instruction of materiality in the 2018 Ramseur trial is the
governing legal standard, not the 1978 Taylor instruction that pertained
to failure-to-report income................ ........................................ *• 8
This Court’s holding in Ramseur is contrary to the three-prong analysis
C.
in the binding precedent, Richardson and Gaudin, which disproves the
12
Schedules Cs were “material”
The PSR proves "the material statement” was the 2013 Statement
1.
of the Texas Department of Insurance. There is no evidence in
13
the record that the Schedule Cs influenced the ERS
The evidence is not sufficient to show the IRS engaged in
2.
14
verifying income
'*
<

ii

v-ase; io-n»yi

Document: uubibiiuibidb

Page: 3

Date Filed: 11/15/2019

TABLE OF AUTHORITIES
CASES
Kolaski v. United States, 362 F.2d847Y5th Cir. 1966) ......

'___ 9

United States v Ramseur, slip op. No. 18-11591 (5th Cir. Nov. 5,2019) . 2,4, 7, 8,
13
United States v. Damon, 676 F.2d 1060 (5th Cir. 1982)

4

United States v. Fontenot, 628 F.2d 921 (5th Cir. 1980)

. 9

United States v. Gaudin, 515 U.S. 506 (1995)

1,6,12,16

United States v. Richardson, 676 F.3d_491 (5th Cir. 2012)

1, 6,12,16

United States v. Taylor, 574 F,2d 232 (5th Cir. 1978)

4,9,12

STATUTES
26 TJ-S.C- § 7206(1)

9

26 I J.S.C. § 7206/2)

6

iii

case: 18-11591

Document: 00515201528

Page: 4

Date Filed: 11/15/2019

STATEMENT OF THE ISSUE
This Court’s opinion is not supported by the facts and operative law. The
government charged Ramseur with a § 7206(2) offense for preparing Schedule Cs
containing false claims of business losses. Unlike Taylor, the government in
Ramseur did not charge or prove a § 7206(1) peijury offense for the failure to report
income; thus, unlike Taylor no rationale jury could find “the Schedule Cs on
Ramseur's clients' tax returns were necessary for the IRS to verify their income."
The question presented is whether the substitution by the Ramseur opinion of
the 1978 Taylor materiality instruction for the 2018 jury charge given at the Ramseur
trial is in direct conflict with binding Fifth Circuit precedent, United States v.
Richardson, 676F.3d 491.505 (5th Cir. 2012), and Supreme Court precedent, United
States v. Gaudin, 515 U.S. 506t 509 (1995).
STATEMENT OF THE CASE
& FACTS NECESSARY TO THE ISSUE
Appellant Robert Earl Ramseur was indicted for twenty-six counts of violating
26TIS-C. § 7206/2^ for aiding and assisting in the preparation of a tax return “that
falsely stated on Schedule C ... that during the tax year charged in the count, the
taxpayer was entitled to claim a business loss in the amount charged in the count.”
(Emphasis supplied). See jury instruction, ROA.29.
1

case: 18-11591

Document: 00515201528

Page: 5

Date Filed: 11/15/2019

The jury instructions also required that the “statement” (in this case, the
Schedule C) be proven beyond a reasonable doubt to be material. ROA.297, The jury
instruction defined materiality:
A statement is "material" if it has a natural tendency to influence or is
capable ofinfluencing the Internal Revenue Service in investigating or
auditing a tax return or in verifying or monitoring the reporting of
income by a taxpayer.
(Emphasis supplied). ROA.298,
To prove the business-loss-claims were false, the record reflects the
government called Special Agent Williams, who had interviewed “21 taxpayers and
learned most of them worked as Form W-2 employees who did not own or operate
any type ofbusiness, precluding them from claiming a Schedule C loss." PSR, paras.
22,23. ROA.1746.
The government also called ten former clients of Mr. Ramseur's as witnesses,
who confirmed that their tax returns contained false Schedule Cs.... Nine clients
testified that they either never operated a business or never told Ramseur they did.
One client operated a business but never told Ramseur that his business lost the
amount of money reported on his Schedule C. United States v Ramseur, slip op. No.
18-11591 at 3 (5th Cir. Nov.5,2019).
Further, the trial record reflects that the alleged fraudulent business loss tax

2

Case: 18-11591

Document: 00515201528

Page: 6

Date Filed: 11/15/2019

scheme was so straight forward, and the loss calculations so simple, that Ms. Peil, the
government’s expert witness, remained in the courtroom to listen to the taxpayer
witnesses called by the government and performed tax loss calculations from what
the taxpayers testified to. ROA.484. The pre-trial tax loss calculations of Ms. Peil,
were a mere one-page in length. See Exhibits 6-103, Exhibit 130. ROA.941:

BLQAm
In closing, the prosecutor argued to the jury:
One ofthe elements in this case is that you have to prove that the lie on
the return — in this case the Schedule C... was capable ofinfluencing
the IRS in its investigation or audit ofa return.
ROA.896.
The PRS, which the district court adopted as having an adequate evidentiary
basis, proved the ’’material statement" was the February 2013 Statement by the Texas
Department of Insurance (TDI) communicated by TDI to the IRS. The PRS recites
the February 2013 Statement “prompted the IRS investigation into Ramseur’s tax
filings.” That February 2013 Statement was as follows:
"During the TDI investigation [for insurance fraud], Ramseur's bank
records were subpoenaed, and it was discovered multiple treasury
checks were being deposited directly into Ramseurfs R&R business
account This raised suspicion [of tax fraud] since treasury refund
checks were normally deposited into the account ofthe taxpayer and
not the filer. This prompted the initial IRS investigation into
Ramseur's tax filings." (hereinafter "February 2013 Statement").
3

Case: 18-11591

Document: 00515201528

Page: 7

Date Filed: 11/15/2019

(Emphasis supplied) PSR para. 14, ROA.1744. See also PSR, para. 51,
ROA.1752 ("... the investigation into the instant offenses, stemmed from
an investigation into a criminal insurance scheme perpetrated by the
defendant").
The jury returned a verdict of guilty on all counts. After the court entered its
judgment and sentenced Mr. Ramseur, he appealed to this Court. Mr. Ramseur
argued among other issues, that the evidence was not sufficient because it was not the
Schedule Cs but instead the 2013 February Statement of the Texas Department of
Insurance (TDI) that influenced the IRS to investigate or audit the returns prepared
by Mr. Ramseur based on information in the PSR prepared for sentencing in the
case-at-bar following the jury verdict.
Rejecting Mr. Ramseur’s argument, the Ramseur opinion held:
“Even ifwe were to accept Ramseur’s arguments, the jury instruction on
materiality refers not only to investigating a tax return, but also
“verifying... the reporting of income by a taxpayer.” In United States v.
Taylor, [574 F.2d 232. 235-36 (5th Cir. 1978)] we held that because
accurate information on an individual income tax return was “vitally
necessary for the IRS to verify” a taxpayer’s income, failure to provide.
such information constitutes a materially false statement...; see also
United States v. Damon, 676 F,2d 1060r 1064 (5th Cir. 1982) (stating
that “[t]he appended Schedule C's, claiming business loss deductions to
which the taxpayers were admittedly not entitled, rendered the returns
‘fraudulent’ or ‘false as to (a) material matter,’ within the meaning of
Section 7206(2)”). Here, the Schedule Cs on Ramseur’s clients’ tax
returns were necessary for the IRS to verify their income. Thus, a
rational jury could have found that the inaccurate information on those
Schedule Cs was material.” Ramseur, slip op. at 5-6.

4

Case: 18-11591

Document: 00515201528

Page: 8

Date Filed: 11/15/2019

INTRODUCTION
The Ramseur opinion recites: "Here, the Schedule Cs on Ramseur's clients' tax
returns were necessary for the IRS to verity their income. Thus, a rational jury could
have found that the inaccurate information on those Schedule Cs was material."
Ramseur, slip op. at 6. There is no factual support in the trial record, and no
operative law in the jury charge, for any such finding by a rationale jury.
The facts and law in Ramseur pertain to an indictment for false claims on a
Schedule C of "business loss" - not a failure to report income and concomitant
problem of proof in verification by the IRS. Assuming for the sake of argument
income verification was at issue, applying the 2018 jury charge given at the Ramseur
trial, the facts contradict the Court’s holding that the Schedules Cs were material.
The PSR, which the district court adopted as having an adequate evidentiary basis,
ROA.931- proved the "material statement" was the February 2013 Statement by the
Texas Department of Insurance (TDI). It was the February 2013 Statement by the
Texas Department of Insurance that influenced the IRS to act, not the Schedule Cs.
The Ramseur opinion illegally substituted the irrelevant 1978 Taylor
materiality definition for that in the jury charge given in the Ramseur trial. The
Ramseur opinion is not supported by the operative jury charge and facts at trial. The

5

■Ji

uase: 18-11591

Document: 00515201528

Page: 9

Date Filed: 11/15/2019

Ramseur opinion is in direct conflict with binding Fifth Circuit precedent, United
States v. Richardson, 676 F.3d 491. 505 (5th Cir. 2012), and Supreme Court
precedent, United States v. Gaudin, 515 U.S, 506, 509 (19951
For all the reasons more fully discussed below, Appellant Ramseur respectfully
requests that this Court grant his motion for rehearing, and acquit the defendant on
Counts 1 through 26, Aiding or Assisting in the Preparation or Presentation of a False
or Fraudulent Individual Income Tax Return in violation of 26 U.S.C. § 7206(21.
Alternatively, Appellant Ramseur requests that one or more members of this
panel make a request for en banc reconsideration because this panel is imposing a
1978 definition of materiality that is illegal and contrary to the governing legal
standard for materiality in the Fifth Circuit’s jury instruction provided to the jury in
the 2018 trial.

6

Case: 18-11591

I.

Document: 00515201528

Page: 10

Date Filed: 11/15/2019

The Ramseur opinion is contrary to both the facts and Operative jury
charge given the jury in the Ramseur trial because nothing in the trial
pertained to income verification. The case is about a simple,
straightforward business loss scheme
The Ramseur opinion recites: “Here, the Schedule Cs on Ramseur's clients* tax

returns were necessary for the IRS to verify their income. Thus, a rational jury could
have found that the inaccurate information on those Schedule Cs was material.”
Ramseur, slip op. at 6.
There is no factual support in the trial record for any such finding by a rationale
jury. Ramseur has nothing to do with "IRS income verification." The government’s
case pertained to proof of a simple, straightforward “business loss” scheme.

A.

The jury charge required the government to prove beyond a
reasonable doubt that the “return falsely stated on Schedule C...,
the taxpayer was entitled to claim a business loss”

The operative legal standard in Ramseur was set forth in the jury charge. It
required the prosecution to prove beyond a reasonable doubt that the Schedule Cs in
the tax return falsely claimed business losses, and that the Schedule Cs were material
because they influenced the IRS to act.
The jury charge recites :
For you to find the defendant guilty of this crime [a violation of
26 1I.S.C. § 7206/2Y[ you must be convinced that the government has
7

Case: 18-11591

Document: 00515201528

Page: 11

Date Filed: 11/15/2019

proved each of the following beyond a reasonable doubt:
First: That the defendant aided and assisted in or procured,
counseled, or advised the preparation of a return arising under the
internal revenue laws;
Second: That this return falsely stated on Schedule C, line 31
and on line 12 of Form 1040 that during the tax year charged in the
count, the taxpayer was entitled to claim a business loss in the amount
set forth in the count;
Third: that the defendant knew that the statement in the return was
false;
Fourth: That the false statement was material, and
Fifth: That the defendant aided and assisted in, or procured,
counseled, or advised the preparation and/or presentation of this false
statement willfully, that is, with intent to violate a known legal duty.
It is not necessary that the government prove that the falsity or
fraud was with the knowledge or consent of the person authorized or
required to present such a return.’'
A statement is "material" if it has a natural tendency to
influence or is capable ofinfluencing the Internal Revenue Service in
investigating or auditing a tax return or in verifying or monitoring the
reporting of income by a taxpayer.
(Emphasis supplied) ROA.297-298: Ramseur, slip op. at 3-4.
B.

The jury instruction of materiality in the 2018 Ramseur trial is the
governing legal standard, not the 1978 Taylor instruction that
pertained to failure-to-report income

Unlike Mr. Ramseur who was indicted under 26 U.S.C. § 7206(2). the
8

Case: 18-11591

Document: 00515201528

Page: 12

Date Filed: 11/15/2019

defendant in United States v. Taylor, 574 F.2d 232 (5th Cir. 1978), was indicted
under 26TI S.C. §7206(1).' Title 26 U, S.C, § 7206fP is a petjury statute, the gist of
which “is a false statement, willfully made, of a material matter. The statement must
be with respect to a fact orfacts .... such that the truth or falsity of it is susceptible
ofproof..." (Emphasis supplied). Kolaskiv. United States, 362 F.2d 847. 848 (5th
Cir. 1966).
The government’s problem of proof arises when it is required to prove an
omission of information because the taxpayer fails to report income, and other than
the taxpayer, there is no readily available source through whom the government can
prove its case. United States v. Fontenot, 628 F.2d_92L_923 (5th Cir. 1980) was a
failure-to-report income case. However, the government proved Fontenot’s failure-

Any person who (1)

Declaration under penalties ofpeijury, - Willfully makes and subscribes any
return, statement, or other document, which contains or is verified by a
written declaration that it is made under the penalties of perjury, and which
he does not believe to be true and correct as to every material matter; or

(2)

Aid or assistance. - Willfully aids or assists in, or procures, counsels, or
advises the preparation or presentation under, or in connection with any
matter arising under, the internal revenue laws, of a return, affidavit, claim,
or other document, which is fraudulent or is false as to any material matter,
whether or not such falsity or fraud is with the knowledge or consent of the
person authorized or required to present such return, affidavit, claim, or
document;

is guilty of a felony.
9

Case: 18-11591

Document: 00515201528

Page: 13

Date Filed: 11/15/2019

to-report income through Mr. Williams, an employee of a company, owned and
operated by Mr. Fontenot. Mr. Fontenot had thrown invoices from a second machine
into the trash each day, and reported only the income from the invoices from the first
machine. Because Mr. Fontenot offered to give Mr. Williams a raise based on a 3%
cash commission on all invoices from the second machine, and concerned Fontenot
would cheat him out of his raise, Mr. Williams retrieved the invoices that Mr.
Fontenot tossed into the trash and kept them as a record of what he was owed.
Like Fontenot, Taylor was a failure-to-report income case; specifically, Mr.
Taylor failed to report any livestock receipts at all on his 1970 or 1971 income tax
returns and failed to file Schedules E or F2 with either return. Taylor, 574 F.2d at
234.2 However, unlike Fontenot, in Taylor there were "no systematic written records
of [Taylor’s] cattle transactions."

Mr. Taylor relied "upon periodic mental ,

calculations to determine that his losses exceeded profits." Id.
2
This Court’s reliance on the 1982 Damon opinion is misplaced.
Damon “attempted] to stretch the rationale of Levy,” to Schedules Cs, asserting
that a form “which was not required by statute or regulation, failed to state an
offense.” The Damon Court held:
An attempt to stretch the rationale of Levy to cover schedules
appended to a Form 1040 return was considered and rejected by this
Court in United States v. Taylor, 574 F.2d 232.237 (5th Cir. 1978),
affirming a conviction under 26 U.S.C. 7206(1) for making and
subscribing individual income tax returns containing false and
fraudulent Schedules E and F.
10

case: 18-11591

Document: 00515201528

Page: 14

Date Filed: 11/15/2019

At trial, the defendant objected to the jury charge on materiality, which recited:
I also rule as a matter of law that if you find that a substantial amount of
partnership income, livestock receipts, commissions, or other income
was omitted from one or more of the federal income tax returns in issue
here, such omission is of a material matter as contemplated by Section
7206, Subsection 1, of Title 26 of the United States Code.
(Emphasis supplied) Taylor, 574 F.2d at_235.
On direct appeal, this Court in Taylor defined the question presented as a
failure-to-report income:
Whether a taxpayer's failure to report substantial amounts of gross
livestock receipts on Schedule F renders the return materially false.”
Taylor, 574 F.2d at 232 (emphasis). And the Taylor holding was “that the jury was
correctly instructed that the omission of [income] substantial amounts of livestock
receipts from Taylor's income tax returns in 1970,1971 and 1972 would, as a matter
of law, constitute the omission of a material matter.” (Emphasis supplied) Taylor,
574 F.2d 236.
This Court reasoned in Taylor that the omission of "the information required
by Schedule F was vitally necessary... [because] the taxpayer conducted dozens of
transactions involving over one hundred thousand dollars in receipts in each tax year
and kept no written records. [Mr. Taylor relied "upon periodic mental calculations to
determine that his losses exceeded profits]. In such a case the burden imposed upon

11

Case: 18-11591

Document: 00515201528

Page: 15

Date Filed: 11/15/2019

the IRS to verify the taxpayer’s return is so extreme that it verges upon impossibility."
Taylor, 574 F.2d at 235-36 (emphasis supplied).
Taylor is inapplicable to Ramseur, see infra.
C.

This Court’s holding in Ramseur is contrary to the three-prong
analysis in the binding precedent, Richardson and Gaudin, which
disproves the Schedules Cs were “material”

The Ramseur opinion is in direct conflict with binding Fifth Circuit precedent,
United States v. Richardson, 676 F.3d 491. 505 (5th Cir. 2012), and Supreme Court
precedent, United States v. Gaudin, 515 U.S. 506. 509 (1995) that set out a
three-pronged framework for analyzing the materiality of a statement. See Ramseur
Brief at 13-19.
Assuming for the sake of argument, without conceding, that the second
question posited by Gaudin is that the decision the agency (IRS) was trying to make
was whether “the IRS should verify income,” the Schedule Cs are still not material.
See Richardson, 676 F.3d at 505.
The jury charge in Ramseur has a predicate to each of the operative, agencyactions. That predicate which must be satisfied by proof beyond a reason doubt, is
that the statement “ha[d] a natural tendency to influence or [was] capable of
influencing the Internal Revenue Service” to act (e.g., investigating or auditing a tax

12

Case: 18-11591

Document: 00515201528

Page: 16

Date Filed: 11/15/2019

return; or verifying or monitoring a taxpayer’s reporting of income) (hereinafter the
“operative act”). ROA.298.
There is no evidence in the record that any Schedule G prepared by Mr.
Ramseur was a material statement that influenced the IRS in verifying income.
The jury charge recited that for the jury to convict, the prosecution must prove
beyond a reasonable doubt:
Second: That this return falsely stated on Schedule C, line 31 and on
line 12 of Form 1040 that during the tax year charged in the count, the
taxpayer was entitled to claim a business loss in the amount set forth
in die count. (Emphasis supplied) RQA.297: Ramseur, slip op. at 3.
The prosecutor's closing argument to jury asserted:
One ofthe elements in this case is that you have to prove that the
lie on the return - in this case the Schedule C was the biggest lie on
every return - that the lie on the return was capable ofinfluencing the
IRS in its investigation or audit of a return.
ROA-896 (emphasis supplied).

1.

The PSR proves "the material statement" was the 2013
Statement of the Texas Department of Insurance. There is no
evidence in the record that the Schedule Cs influenced the IRS

The first question posited by Gaudin is: What statement was made? The PSR
proves the “material statement” was the 2013 Statement by the Texas Department of
Insurance (TDI), and disproves the Court’s holding that the Schedule Cs were
13

Case: 18-11591

Document: 00515201528

Page: 17

Date Filed: 11/15/2019

material:3

i

"During the TDIinvestigation [for insurancefraud], Ramseur's bank records
were subpoenaed, and it was discovered multiple treasury checks were being
deposited directly into Ramseur’s R&R business account. This raised
suspicion [of tax fraud] since treasury refund checks were normally
deposited into the account ofthe taxpayer and not the filer. This prompted
the initial IRS investigation into Ramseur's tax filings." (hereinafter
"February 2013 Statement"). (Emphasis supplied) PSR para. 14, RQA.1744.
See also PSR, para, 51, ROA.1752 ("... the investigation into the instant
offenses, stemmed from an investigation into a criminal insurance scheme
perpetrated by the defendant").
2.

The evidence is not sufficient to show the IRS engaged in
verifying income

It was only after the 2013 Statement from the Texas Department of Insurance,
that an "initial investigation was conducted by the IRS Austin Scheme Detection
Center (ASDC) which concluded from 2010 through 2013, Ramseur filed a total of
707 returns which were preliminarily reviewed and determined to be indicative of

3
Although the February 2013 Statement was not admitted into
evidence at the guilt/innocence phase of the trial, the district court at sentencing
determined that the PSR in which this information was recited, had an adequate
evidentiary basis and was reliable. See ROA.931 ("I am adopting the presentence
report and addendum as my factual determination at sentencing."). United States
v. Harris, 702 F.3d 226. 230 (5th Cir. 2012) (district court may adopt facts in PSR
without inquiry if facts have adequate evidentiaiy basis and sufficient reliability
and defendant does not present rebuttal evidence or demonstrate that information
in PSR is unreliable).
14

Case: 18-11591

Document: 00515201528

Page: 18

Date Filed: 11/15/2019

fraudulent behavior." PSR, para. 15. ROA.1744.4
Based on the representative sampling, "This yielded 21 taxpayers filing 55
returns." PSR, paras. 22,23, ROA.1746. Special Agent Williams "interviewed each
of these 21 taxpayers and learned most of them worked as Form W-2 employees who
did not own or operate any type of business, precluding them from claiming a
Schedule C loss" PSR, paras. 22,23, ROA.1746 (emphasis supplied). Brief at 4,.
Thus, contrary to the Ramseur opinion, the trial evidence was that after the IRS
learned about potential fraud from TDI, the IRS made maximum use of the
inaccuracies in the Schedules Cs to investigate whether individual taxpayers were
entitled to claim a business loss.
Moreover, unlike Taylor the trial record in Ramseur also made clear that the
alleged tax scheme was not covert or complex, and had to do with loss calculations,
not income verification. See Brief at 19. The pre-trial tax loss calculations ofMs.
Peil, the prosecution's expert, were a mere one-page in length. See Exhibits 6-103,

4
In fact, because of the inaccuracies in the Schedule C, the IRS
complied a statistical comparison, that was admitted at trial as Exhibit 165, and
discussed though various witnesses to prove falsity. (Testimony of Hui ROA.867-R73: Exhibit 165 admitted - ROA.882. When the returns prepared by
Mr. Ramseur, including a comparison of the Schedule Cs, refunds, earned income
credits, and education credits for his clients, were compared against those for the
Dallas/Fort Worth, Texas, and the United States, the loss deductions were out of
the norm. ROA.497-498.
15

Case: 18-11591

Document: 00515201528

Page: 20

Date Filed: 11/15/2019

United States v. Richardson 676 F.3d491. 505 (5th Cir. 2012), and Supreme Court
precedent, United States v. Gaudin. 515 IJ.S. 506. 509 (1095).

Respectfully submitted.
s/ Lydia M. Brandt
Lydia M. Brandt
The Brandt Law Firm, P.C.
Texas Bar No. 00795262
P.O. Box 326, Farmersville, TX 75442-0326
(972)752-5805
COUNSEL FOR APPELLANT

CERTIFICATE OF SERVICE
This certifies that on November 15,2019,1 electronically filed the foregoing
document with the clerk ofcourt using the electronic case filing system of the court.
The electronic case filing system sent a notice of electronic filing to the attorney of
record for the Appellee, Gregory S. Knapp, S. Robert Lyons, Alexander Robbins,
Attorneys for the United States, Leigha Simonton, Assistant U.S. Attorney, who have
consented in writing to accept this notice as service of this document by electronic
means.
s/ Lydia M. Brandt
Lydia M. Brandt
17

